 

                                        Office of Inspector General
                                       Corporation for National and
                                                Community Service




           AGREED-UPON PROCEDURES OF CORPORATION
             FOR NATIONAL AND COMMUNITY SERVICE
           GRANTS AWARDED TO JUMPSTART FOR YOUNG
                       CHILDREN, INC.

                           OIG REPORT 09-04




                                Prepared by:

                     Mayer Hoffman McCann P.C.
                  Conrad Government Services Division
                  12761 Darby Brooke Court, Suite 201
                       Woodbridge, Virginia 22192




    This report was issued to Corporation management on October 21, 2008. Under the
    laws and regulations governing audit follow-up, the Corporation is to make final
    management decisions on the report’s findings and recommendations no later than
    April 21, 2009 and complete its corrective actions by October 21, 2009. Consequently,
    the reported findings do not necessarily represent the final resolution of the issues
    presented.
                         OFFICE OF INSPECTOR GENERAL
                                         October 21, 2008


TO:           Kristin McSwain
              Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      Report 09-04, Agreed-Upon Procedures of Corporation for National and
              Community Service Grants Awarded to Jumpstart for Young Children, Inc.


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann PC (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to Jumpstart for Young Children, Inc. The contract required MHM to conduct its
review in accordance with generally accepted government auditing standards.

MHM is responsible for the attached report, dated October 17, 2008, and the conclusions
expressed therein. We do not express opinions on the Schedule of Award and Claimed
Costs; questioned costs; conclusions on the effectiveness of internal controls; or compliance
with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by April 21, 2009. Notice of final action is due by October 21, 2009.

If you have questions pertaining to this report, please call me at (202) 606-9360 or Jim
Elmore at (202) 606-9354.

Attachment

cc:   Erin Cox-Weinberg, Executive Director, Jumpstart for Young Children, Inc.
      William Anderson, Deputy Chief Financial Officer for FM
      Rocco Gaudio, Deputy Chief Financial Officer, for GFFM
      Sherry Blue, Audit Resolution Coordinator
      Randal Vellocido, Shareholder, Mayer Hoffman McCann P.C., Conrad
          Government Services Division




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                        202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps     AmeriCorps   Learn and Serve America
 


    AGREED-UPON PROCEDURES OF CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              GRANTS AWARDED TO JUMPSTART FOR YOUNG CHILDREN, INC.

                                   Table of Contents

                                                                           Page

Executive Summary                                                           1

Independent Accountants’ Report on Applying Agreed-Upon Procedures          5

    Results – Costs Claimed                                                 6

      Consolidated Schedule of Award and Claimed Costs                      7

      Notes to Consolidated Schedule of Award and Claimed Costs             7

      Exhibit: Schedule of Awards and Claimed Costs by Grant                8

      Schedule A-1 – Schedule of Award and Claimed Costs, Jumpstart         10

      Schedule A-2 – Schedule of Award and Claimed Costs, St. John’s        11
                     University

      Schedule A-3 – Schedule of Award and Claimed Costs, Howard            13
                     University

      Schedule A-4 – Schedule of Award and Claimed Costs, Texas Tech        14
                     University

      Schedule A-5 – Schedule of Award and Claimed Costs, Long Island       15
                     University

    Results – Compliance and Internal Control                               16

Appendix A – Jumpstart for Young Children, Inc. Response to Draft Report

Appendix B – Corporation for National and Community Service Response to
             Draft Report
                                  EXECUTIVE SUMMARY




The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to Jumpstart for Young Children, Inc. (Jumpstart).

Results

As a result of applying the procedures, the auditors questioned claimed Federal-share costs
of $23,723 and education awards of $11,500. A questioned cost is an alleged violation of
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; or a finding that, at the time of testing, such
cost is not supported by adequate documentation. The cost results of our agreed-upon
procedures are summarized in the Consolidated Schedule of Award and Claimed Costs.

Jumpstart claimed total costs of $4,456,134 from July 1, 2004, through August 31, 2007. As
a result of testing a judgmentally selected sample of transactions, the auditors questioned
costs claimed, as shown below.

                                                                                 Education
     Description of Questioned Costs       Grant Number      Federal Share        Award



   Inadequate Controls Over Cost
                                          03LHHMA001           $     7,760       $           -
   Reporting
   Inadequate Controls Over Cost
                                          03NDHMA001                12,691                   -
   Reporting
   Inadequate Controls Over Cost
                                          06NDHMA002                 3,272                   -
   Reporting
   Members did not Serve Required
                                          06NDHMA002                         -        2,000
   Minimum Service Hours
   Improper Recording of Member
                                          06NDHMA002                         -        1,000
   Service Hours
   Pre-Contract Service Hours             03NDHMA001                         -        4,000
   Pre-Contract Service Hours             06NDHMA002                         -        4,500

                                  Total                       $     23,723       $   11.500

The auditors also found unallowable match costs of $191,094 related to the four grants but
did not question these costs because, after subtracting these unallowable costs, Jumpstart
would still meet its match obligation.


                                             1
AmeriCorps members who successfully complete terms of service are eligible for education
awards and accrued interest awards funded by the National Service Trust. These award
amounts are not funded by Corporation grants and thus are not costs claimed by Jumpstart.
As part of our agreed-upon procedures, however, the auditors determined the effect of audit
findings on eligibility for education and accrued interest awards. Using the same criteria
described above, the auditors questioned education awards of $11,500 due to non-
compliance with program requirements.

Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below under the Compliance and Internal Control section. Issues
identified included:

      Lack of controls or controls not implemented over reporting and recording of
       Federal–share and match costs;

      Lack of adequate procedures and controls to ensure service hours are recorded only
       for members with signed contracts, criminal background checks are performed, and
       required minimum service hours are met; and

      Late submission of Financial Status Reports and member documents, missing
       member evaluations, unsigned member time sheets, and excessive daily member
       service hours.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct grantees,
such as Jumpstart, and other entities to assist in the creation of full- and part-time national
and community service positions.

Jumpstart, located in Boston, MA, operates as a National Direct grantee using grant funds
awarded by the Corporation. Jumpstart is a nonprofit that utilizes AmeriCorps members
from different subgrantees, and whose purpose is to help pre-school children learn to read.
The focus is to have members work on a one-on-one basis with children so that they are
better prepared to start school.

Jumpstart awarded funds to 28 AmeriCorps and 4 Higher Education subgrantees during our
audit period. Jumpstart funded 21 AmeriCorps subgrantees in each of the two program
years, 2005-2006 and 2006-2007. For the Higher Education Grant, it funded three and four
subgrantees for program years 2005-2006 and 2006-2007, respectively. Tufts University
was an additional subgrantee under the Higher Education grant, but the auditors did not
consider it as a separate site because Jumpstart directly paid all costs. Jumpstart did not
use subgrantees on the Innovative Grant.




                                              2
Under the Jumpstart AmeriCorps program, subgrantees paid members living allowances but
mostly funded them from non-Federal sources. Only two subgrantees, Borough of
Manhattan Community College and City Tech, paid living allowances using Federal Funds.
The grantee maintains the supporting documentation for the claimed costs for these two
subgrantees, and the subgrantees maintain the member files. All other subgrantees
maintain their own supporting documentation for claimed costs and member files.

Jumpstart’s monitoring policies are segregated into three different types: financial,
AmeriCorps, and programmatic. Jumpstart schedules its remote, desk-type, financial
monitoring in November and reviews expenses incurred during October. AmeriCorps
member file monitoring and programmatic monitoring are performed onsite, once a year and
twice a year, respectively.

Jumpstart received grant funds of $4,920,581, and claimed Federal costs of $4,456,134
during the period the auditors tested.

The auditors compared the inception-to-date drawdown amounts with the amounts reported
in the last Financial Status Reports (FSR) for the periods tested and determined that the
drawdowns were reasonable.

Agreed-Upon-Procedures Scope

The auditors performed the agreed-upon procedures during the period March 5 through
June 17, 2008. The agreed-upon procedures covered the allowability, allocability, and
reasonableness of financial transactions claimed between July 1, 2004, and August 31,
2007. The auditors also performed tests to determine compliance with grant terms and
provisions.

         Program             Award Number           Award Period            Testing Period
Higher Education Programs
   – Learn and Serve         03LHHMA001          10/01/03 to 09/30/06   07/01/04 to 09/30/06
Innovative Programs –
   Challenge Grant           04IPHMA001          11/17/04 to 08/31/06   11/17/04 to 08/31/06
AmeriCorps National Direct   03NDHMA001          09/01/03 to 08/31/06   09/01/05 to 08/31/06
AmeriCorps National Direct   06NDHMA002          09/01/06 to 08/31/09   09/01/06 to 08/31/07

The procedures performed, based on the OIG’s agreed-upon-procedures program dated
January 2008, have been included in the Independent Accountants’ Report on Applying
Agreed-Upon Procedures section of this report.

Exit Conference

The contents of this report were discussed with the Corporation and Jumpstart at an exit
conference held in Boston, MA, on July 16, 2008. In addition, a draft of this report was
provided to Jumpstart and to the Corporation for comment on August 28, 2008. Jumpstart
agreed with most of the issues within each finding, and its responses to the findings in the
draft report are included in Appendix A and summarized in each finding. The Corporation
generally agreed with the findings and recommendations, but disagreed with questioning
costs for education awards in instances in which the auditors subtracted the hours served by


                                             3
members before their contracts were signed. The Corporation’s response is included in
Appendix B, but it intends to address the issues more fully when it provides its management
decision.

Other Matters

Jumpstart’s existing subgrantee fiscal monitoring procedures provide for testing transactions
for the month of October each year. The auditors are concerned that pre-established
monitoring periods known to subgrantees could result in a substandard program, correcting
only October deficiencies prior to the annual monitoring, thereby concealing systemic
problems. Jumpstart’s financial monitoring could be improved by revising its procedures so
that the subgrantees are unaware of the month(s) to be selected for review.
Notwithstanding the existing weakness in monitoring, our tests of subgrantee transactions
for other months showed results similar to Jumpstart’s monitoring tests for the month of
October 2006.

Jumpstart stated, in its response to a draft of this report, that financial monitoring is followed
up by a random spot check at some point during the year of those affiliates that Jumpstart
believes may have inadequate controls.

However, Jumpstart could overlook inadequate controls because of Jumpstart’s reliance
upon the outcome of its review of October transactions. We continue to believe that
Jumpstart would benefit by selecting periods for testing that will not be known by its
subgrantees.




                                                4
                 Conrad Government Services Division 

 

Inspector General
Corporation for National and Community Service


                                INDEPENDENT ACCOUNTANTS’ REPORT ON
                                 APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described below for costs claimed between July 1,
2004, and August 31, 2007. The procedures were agreed to by the OIG solely to assist it in
grant-cost and compliance testing of Corporation-funded Federal assistance provided to
Jumpstart for the awards and periods listed below, with a combined award period of
September 1, 2003, to August 31, 2009. This agreed-upon procedures engagement was
performed in accordance with standards established by the American Institute of Certified
Public Accountants and generally accepted government auditing standards. The sufficiency
of these procedures is solely the responsibility of the OIG. Consequently, we make no
representation regarding the sufficiency of the procedures described below, either for the
purpose for which this report has been requested or any other purpose.

         Program                   Award Number              Award Period                Testing Period
Higher Education Programs
   – Learn and Serve              03LHHMA001             10/01/03 to 09/30/06        07/01/04 to 09/30/06
Innovative Programs –
   Challenge Grant                04IPHMA001             11/17/04 to 08/31/06        11/17/04 to 08/31/06
AmeriCorps National Direct        03NDHMA001             09/01/03 to 08/31/06        09/01/05 to 08/31/06
AmeriCorps National Direct        06NDHMA002             09/01/06 to 08/31/09        09/01/06 to 08/31/07

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures that we performed included obtaining an understanding of Jumpstart and its
sub-site monitoring process; reconciling Federal share and match costs claimed to the
accounting system; reviewing member files to verify that the records supported member
eligibility to serve and allowability of living allowances and education awards; testing
compliance with selected grant provisions and award terms and conditions; and testing
claimed grant costs and match costs of Jumpstart to ensure: (i) proper recording of grant
costs; (ii) that the required match was met; and (iii) costs were allowable and supported in
accordance with applicable regulations, OMB circulars, grant provisions, and award terms
and conditions.


         2301 Dupont Drive, Suite 200  Irvine, California 92612  949-474-2020 ph  949-263-5520 fx
    12761 Darby Brooke Court, Suite 201  Woodbridge, Virginia 22192  703-491-9830 ph  703-491-9833 fx


                                                     5
 


                               Results – Costs Claimed

The testing results of costs are summarized in the schedules and exhibits below. The
schedules and exhibits also identify instances of questioned education awards. These
awards were not funded by the Corporation grant, and accordingly are not included in
claimed costs. As part of our agreed-upon procedures, however, we determined the effect
of member program hours and eligibility exceptions on these awards.




                                          6
         


                        Consolidated Schedule of Award and Claimed Costs
                      Corporation for National and Community Service Awards
                                 Jumpstart for Young Children, Inc.

                                     July 1, 2004, to August 31, 2007

Award Number        Program          Approved          Claimed     Questioned     Questioned   Reference
                                      Budget            Costs        Costs        Education
                                                                                   Awards
03LHHMA001     Higher Education
               Programs – Learn
               and Serve            $ 1,103,608    $    817,122    $      7,760   $        -    Exhibit

04IPHMA001     Innovative
               Programs –
               Challenge Grant          400,000         400,000               -            -    Exhibit

03NDHMA001     AmeriCorps –
               National Direct        1,541,173        1,514,691         12,691        4,000    Exhibit

06NDHMA002     AmeriCorps –
               National Direct        1,875,800        1,724,321          3,272        7,500    Exhibit

                           Totals   $ 4,920,581 $ 4,456,134            $ 23,723   $   11,500




                     Notes to Consolidated Schedule of Award and Claimed Costs

        Basis of Accounting
        The accompanying schedules have been prepared to comply with provisions of the grant
        agreements between the Corporation and Jumpstart. The information presented in the
        schedules has been prepared from reports submitted by Jumpstart to the Corporation and
        accounting records of Jumpstart and its sites/subgrantees. The basis of accounting used in
        the preparation of these reports differs from accounting principles generally accepted in the
        United States of America as discussed below.

        Equipment
        No equipment was purchased and claimed under Federal or grantee match of cost for the
        period within our audit scope.

        Inventory
        Minor materials and supplies are charged to expenses during the period of purchase.




                                                       7
      


                                                                                      EXHIBIT

                          Schedule of Awards and Claimed Costs by Grant
                                Jumpstart for Young Children, Inc.
                                 July 1, 2004, to August 31, 2007

                                                                         Questioned
                                                Claimed     Questioned   Education
                 Awards                          Costs        Costs       Awards        Reference

       03NDHMA001 – National Direct
Jumpstart *                                  $ 538,332      $    9,936   $        -   Schedule A-1
Borough of Manhattan Community College            44,752             -            -
City Tech                                         40,406             -            -
Minnesota State University                        49,003             -            -
St. Louis University                              61,875             -            -
University of Missouri – Kansas City              57,223             -            -
University of Missouri – Columbia                 59,034             -            -
Illinois State University                         48,062             -            -
St. John’s University *                           47,071             -            -
University of Rhode Island                        53,775             -            -
George Washington University *                    67,939             -            -
Howard University *                               54,782             -        2,000   Schedule A-3
Kentucky State University                         50,672             -            -
University of Virginia *                          53,140             -            -
Washburn University                               46,112             -            -
University of Kentucky                            34,841             -            -
Georgia Tech University                            6,999             -            -
Georgia State University                          45,716             -            -
Texas Tech University *                           61,031           281            -   Schedule A-4
Long Island University *                          52,788         2,474        2,000   Schedule A-5
Morehouse College                                 41,138         _   -        _ -
                                   Sub-total $ 1,514,691    $   12,691   $    4,000

      06NDHMA002 – National Direct
Jumpstart *                                 $    804,514    $        -   $        -
Minnesota State University                        55,777             -            -
St. Louis University                              62,629             -            -
St. John’s University *                           57,060         2,742        2,000 Schedule A-2
University of Rhode Island                        73,529             -            -
George Washington University *                       (79)            -            -
Howard University *                                     -            -        2,000 Schedule A-3
Kentucky State University                         53,870             -            -
University of Virginia *                          55,885             -            -
University of Kentucky                            52,488             -            -
Texas Tech University *                           60,475           320            - Schedule A-4


                                                   8
       


                                                                          Questioned
                                                Claimed     Questioned    Education
                   Awards                        Costs        Costs         Awards     Reference
Long Island University *                           57,491           210         3,500 Schedule A-5
Roosevelt University                               59,051             -             -
Georgetown University                              41,551             -             -
Florida State University                           13,122             -             -
Houston Community College                          58,287             -             -
Texas Southern University                          49,631             -             -
University of California – Irvine                 110,179             -             -
Pitzer Direct                                      58,861             -         _ -
                                    Sub-total $ 1,724,321   $     3,272   $     7,500

    03LHHMA001 – Higher Education
                Programs
Jumpstart *                                  $   441,402    $    7,760    $        - Schedule A-1
Benedict College                                 111,339             -             -
Arizona State University                          82,901             -             -
University of Washington – Seattle               139,083             -             -
Texas Southern University                         42,397             -             -
                                   Sub-total $   817,122    $    7,760    $        -

  04IPHMA001 – Innovative Programs
Jumpstart *                                  $   400,000    $         -   $        -

                                       Total $ 4,456,134    $   23,723    $   11,500

      *Selected for Application of Agreed-Upon Procedures




                                                  9
 


                                                                             Schedule A-1
                                                                               Page 1 of 1

                         Schedule of Award and Claimed Costs
                                      Jumpstart


         Awards 03NDHMA001, 06NDHMA002, 03LHHMA001, and 04IPHMA001



                                                                                    Reference

Approved Budget (Federal Funds)                                       $2,584,118      Note 1

Claimed Federal Costs                                                 $2,184,248      Note 2

Questioned Costs:
   Unsupported Costs (03LHHMA001)                         $ 1,538                     Note 3
   Missing Time Sheet (03NDHMA001)                            547                     Note 4
   Personnel Costs Not Properly Allocated
       (03LHHMA001)                                           6,222                   Note 5
       (03NDHMA001)                                           9,389                   Note 5
    Total Questioned Costs                                            $   17,696

Questioned Education Awards                                           $         -


Notes

1. The amount shown above as Approved Budget represents the total funding to Jumpstart
   according to the grant award agreements.

2. Claimed costs represent Jumpstart’s reported Federal expenditures, under the National
   Direct grant, for the period September 1, 2005, through August 31, 2007. It also
   includes claimed costs under the Learn & Serve and Challenge grants, for the periods of
   July 1, 2004 through September 30, 2006 and November 17, 2004 through August 31,
   2006, respectively.

3. One Federal-share cost transaction was not properly supported (see Finding 1). The
   questioned cost identified represents 8 percent of a sampled total of $19,704.

4. Time and attendance records were not maintained for one Jumpstart employee for the
   pay period ended February 24, 2006 (see Finding 1).

5. Fringe benefits were not properly allocated to the AmeriCorps grant (see Finding 1).




                                            10
 


                                                                             Schedule A-2
                                                                               Page 1 of 2

                        Schedule of Award and Claimed Costs
                             St. John’s University (SJU)


                    Awards 03NDHMA0010029 & 06NDHMA0020001



                                                                                Reference

Approved Budget (Federal Funds)                                  $106,439           Note 1

Claimed Federal Costs                                            $104,131           Note 2

Questioned Costs:
   Unallowable Cost (06NDHMA0020001)                 $     861                      Note 3
   Unsupported Cost (06NDHMA0020001)                     1,646                      Note 4
   Costs Incurred Outside Grant Period
       (06NDHMA0020001)                                   197                       Note 5
   Claimed Costs Does Not Equal Accounting
       Records (06NDHMA0020001)                            38                       Note 6
    Total Questioned Costs                                       $   2,742          Note 9

Questioned Education Awards:
   Minimum Service Hours Not Met
       (06NDHMA0020001)                              $ 1,000                        Note 7
   Improper Recording of Member Service Hours
       (06NDHMA0020001)                                  1,000                      Note 8
     Total Questioned Education Awards                           $   2,000


Notes

1. The amount shown above as Approved Budget represents the total funding to SJU
   according to the subgrantee agreements.

2. Claimed costs represent SJU’s reported Federal expenditures for the period
   September 1, 2005, through August 31, 2007.

3. Two Federal-share costs transactions charged to the AmeriCorps program were not
   AmeriCorps expenses (see Finding 1).

4. One Federal-share cost transaction was not properly supported (see Finding 1).

5. One Federal-share costs transaction was not reported in the proper grant period (see
   Finding 1).


                                           11
 



                                                                             Schedule A-2
                                                                               Page 2 of 2


6. Federal-share costs charged to the grant do not reconcile to the accounting records (see
   Finding 1).

7. One member did not serve the minimum service hours required to earn an education
   award (see Finding 2).

8. One member recorded excessive daily hours on his/her time sheet (see Findings 3).

9. The questioned costs identified represent 24 percent of our sampled total of $11,547.




                                            12
 


                                                                              Schedule A-3
                                                                                Page 1 of 1

                        Schedule of Award and Claimed Costs
                              Howard University (HU)


                    Award 03NDHMA0010014 and 06NDHMA0020018



                                                                                 Reference

Approved Budget (Federal Funds)                                 $   54,797          Note 1

Claimed Federal Costs                                           $   54,782          Note 2

Questioned Costs                                                $         -

Total Questioned Education Awards:
   Member Contracts Signed After Start
       of Service (03NDHMA0010014)                   $ 2,000                        Note 3
       (06NDHMA0020018)                                1,000                        Note 3
   Minimum Service Hours Not Met
       (06NDHMA0020018)                                1,000                        Note 4
      Total Questioned Education Awards                         $    4,000


Notes

    1. The amount shown above as Approved Budget represents the total funding to HU
       according to the subgrantee agreements.

    2. Claimed costs represent HU’s reported Federal expenditures for the period
       September 1, 2005, through August 31, 2007.

    3. Six applicants recorded service hours before they had signed member contracts (see
       Finding 2).

    4. One member did not serve the minimum service hours required to earn an education
       award (see Finding 2).




                                           13
 


                                                                                Schedule A-4
                                                                                  Page 1 of 1

                         Schedule of Award and Claimed Costs
                             Texas Tech University (TTU)


                   Awards 03NDHMA0010015 and 06NDHMA0020009



                                                                                   Reference

Approved Budget (Federal Funds)                                   $ 125,788           Note 1

Claimed Federal Costs                                             $ 121,506           Note 2

Questioned Costs:
   Unallowable Cost (03NDHMA0010015)                 $    281                         Note 3
   Unallowable Costs (06NDHMA0020009)                     320                         Note 4
    Total Questioned Costs                                        $      601          Note 5

Questioned Education Awards                                       $         -


Notes

1. The amount shown above as Approved Budget represents the total funding to TTU
   according to the subgrantee agreements.

2. Claimed costs represent TTU’s reported Federal expenditures for the period September
   1, 2005, through August 31, 2007.

3. One Federal-share cost transaction for recognition was claimed to the AmeriCorps
   program (see Finding 1).

4. Five Federal-share cost transactions that were claimed to the AmeriCorps program were
   not AmeriCorps expenses (see Finding 1).

5. The questioned costs identified represents 5 percent of a sampled total of $13,231.




                                            14
 


                                                                             Schedule A-5
                                                                              Page 1 of 1

                         Schedule of Award and Claimed Costs
                             Long Island University (LIU)


                   Awards 03NDHMA0010020 and 06NDHMA0020007

                                                                                 Reference

Approved Budget (Federal Funds)                                   $ 115,956         Note 1

Claimed Federal Costs                                             $ 110,279         Note 2

Questioned Costs:
   Unsupported Costs
       (03NDHMA0010020)                               $    574                      Note 3
       (06NDHMA0020007)                                    100                      Note 3
   Unallowable Costs
       (03NDHMA0010020)                                   1,900                     Note 4
       (06NDHMA0020007)                                     110                     Note 4
    Total Questioned Costs                                        $    2,684        Note 6

Total Questioned Education Awards:
   Member Contracts Signed After Start
       of Service (03NDHMA0010020)                    $ 2,000                       Note 5
                  (06NDHMA0010007)                      3,500                       Note 5
      Total Questioned Education Awards                           $    5,500

Notes

1. The amount shown above as Approved Budget represents the total funding to LIU
   according to the subgrantee agreements.

2. Claimed costs represent LIU’s reported Federal expenditures for the period September
   1, 2005, through August 31, 2007.

3. Two Federal-share cost transactions were not properly supported (see Finding 1).

4. Federal-share cost transactions for recognition were charged to the AmeriCorps grant
   (see Finding 1). Also, one Federal-share cost transaction was charged to the
   AmeriCorps grant but was not an AmeriCorps expense (see Finding 1).

5. Nine applicants recorded service hours before they had signed member contracts (see
   Finding 2).

6. The questioned costs identified represent 26 percent of a sampled total of $10,296.



                                            15
 


                       Results - Compliance and Internal Control

The results of our agreed-upon procedures also revealed instances of non-compliance with
grant provisions, regulations, or OMB requirements, as shown below:

       Lack of controls or controls not implemented over reporting and recording of
        Federal–share and match costs;

       Lack of adequate procedures and controls to ensure service hours are recorded only
        for members with signed contracts, criminal background checks are performed, and
        required minimum service hours are met; and

       Late submission of Financial Status Reports and member documents, missing
        member evaluations, unsigned member time sheets, and excessive daily member
        service hours.


Finding 1. Lack of controls or controls not implemented over reporting and
           recording of Federal–share and match costs.

Costs Reconciliation

The financial records in support of Jumpstart’s claimed costs for three of the six AmeriCorps
subgrantees we tested did not reconcile to accounting records. Jumpstart advised that it
incorrectly entered Periodic Expense Report (PER) data into its accounting system for two
subgrantees. In addition, one subgrantee lacked an adequate accounting system. As a
result, the accounting records of the subgrantees and Jumpstart do not agree.

Jumpstart lacked controls to ensure that it correctly entered the data from subgrantee PERs
into its financial system. Subgrantees submit electronic PERs to Jumpstart, which in turn,
re-enters the data into its systems, creating new PERs. SJU’s PER for Federal-share
claimed costs were overstated in Jumpstarts’ records by $38. As a result, we questioned
the overstated costs of $38 for the AmeriCorps program (06NDHMA002). GWU’s PER for
match costs claimed were overstated on the Jumpstarts’ records by $31. However, we did
not question the match costs because we determined that Jumpstart would still meet its
matching requirements if the amount was deducted from the total grantee match costs
claimed.

For match costs, LIU did not maintain financial records in the form of a general ledger or
other accounting report. Instead, LIU charged “Other Program Operating Costs” to the grant
by using the budgeted amounts and not actual costs. LIU claimed unrecorded match costs
of $32,897 in program year 2005-2006 and $37,036 in program year 2006-2007. We did not
question the match costs because, if the amount was deducted from the claimed match,
Jumpstart would still meet its matching requirements.




                                             16
 


Criteria

AmeriCorps General Provisions (2005 ed.), Section V.B.1., Financial Management
Standards, states in part:

           1. General. The grantee must maintain financial management systems that
           include standard accounting practices, sufficient internal controls, a clear
           audit trail and written cost allocation procedures, as necessary. Financial
           management systems must be capable of distinguishing expenditures
           attributable to this grant from expenditures not attributable to this grant. The
           systems must be able to identify costs by programmatic year and by budget
           category and to differentiate between direct and indirect costs or
           administrative costs. For further details about the grantee's financial
           management responsibilities, refer to OMB Circular A-102 and its
           implementing regulations … [45 C.F.R. § 2541] or A-110 and its
           implementing regulations … [45 C.F.R. § 2543], as applicable.

Unsupported Costs

Jumpstart and two of the six AmeriCorps subgrantees we tested charged and claimed
unsupported costs. At Jumpstart, for the Higher Education Grant, one of the 21 Federal-
share costs transactions reviewed and one of the 10 grantee match costs transactions
reviewed were not supported. As a result, we questioned Federal-share costs for the Higher
Education grant of $1,538. We did not question the match costs because, when we
deducted the amount from the total grantee match claimed costs, Jumpstart still met its
matching requirements.

One of the 20 Federal-share costs transactions we reviewed at SJU was not properly
supported. SJU indicated that the supporting documentation had been misfiled, and it was
unable to locate it.   As a result, we questioned Federal-share costs of $1,646
(06NDHMA002).

Two of the 40 Federal-share cost transactions reviewed at LIU were not supported. One
transaction of $574 was charged to and claimed on grant No. 03NDHMA001 and the other
transaction of $100 was charged to and claimed on grant No. 06NDHMA002. LIU could not
determine why the supporting documentation could not be located. As a result, we
questioned the Federal-share costs of $674.

Criteria

The 2005 AmeriCorps General Provisions, Section A.1. Responsibilities under Grant
Administration, Accountability of Grantee, states in part, “The Grantee has full fiscal and
programmatic responsibility for managing all aspects of the grant and grant-supported
activities, subject to the oversight of the Corporation.”




                                                 17
 


Corporation regulations at 45 C.F.R. Subpart C, Post-Award Requirements, § 2543.21
Standards for financial management systems, states in part:

       (b) Recipients' financial management systems shall provide for the following.

          (1) Accurate, current and complete disclosure of the financial results of
              each federally-sponsored project or program in accordance with the
              reporting requirements set forth in §2543.51…

          (2) Records that identify adequately the source and application of funds
              for federally-sponsored activities. These records shall contain
              information pertaining to Federal awards, authorizations, obligations,
              unobligated balances, assets, outlays, income and interest.

          (3) Effective control over and accountability for all funds, property and
              other assets. Recipients shall adequately safeguard all such assets
              and assure they are used solely for authorized purposes.

The criteria cited above for the cost reconciliation issue, “AmeriCorps General Provisions
(2005 ed.), Section V.B.1. Financial Management Standards,” is also applicable to
unsupported costs.

Unallowable Costs

Jumpstart and three of the six AmeriCorps subgrantees we tested claimed unallowable
costs to the AmeriCorps programs. Two of the 10 grantee match-cost transactions we
reviewed for grant No. 03NDHMA001 at Jumpstart were unallowable. One of the
transactions was for an American Eagle scholarship awarded to a AmeriCorps member.
The other cost was to purchase flowers for an employee. These recognition costs are
unallowable. We did not question the match costs because the grantee had sufficient match
available to substitute for these unallowable costs.

Two of the 20 Federal-share cost transactions reviewed at SJU were unallowable because
the purposes of the transactions were unrelated to the grant. SJU indicated that the
unallowable cost transactions were inadvertently coded in its accounting system to grant
No. 06NDHMA002. As a result, the auditors questioned the unallowable costs of $861.

Six of the 38 Federal-share cost transactions reviewed at TTU were unallowable. All of the
unallowable cost transactions charged to the grants were not grant-related expenses. Five
of the unallowable cost transactions charged to grant No. 06NDHMA002 were for travel
expenses of persons not involved with the AmeriCorps program, and one of the transactions
charged to grant No. 03NDHMA001 was for three iPod Shuffles to be used as performance
incentives for AmeriCorps members and others to complete a survey for research. TTU
indicated that the unallowable claimed costs were for research programs approved by
Jumpstart, but documentation of the approval could not be located. Also, both of the
grantee match cost transactions reviewed at TTU were unallowable. These unallowable
cost transactions were for supplies for research programs. As a result, the auditors
questioned the Federal-share costs of $320 for the travel expenses, and $281 for the



                                            18
 


purchase of iPod Shuffles. The auditors did not question match costs because the grantee
had sufficient match to substitute for these unallowable costs.

Five of the 40 Federal-share cost transactions reviewed at LIU were unallowable. For grant
No. 03NDHMA001, LIU charged two of the transactions, totaling $254, for member-
appreciation lunches and a transaction for training registration expenses of $1,646 that were
unrelated to the purpose of the grant. For grant No. 06NDHMA002, LIU charged two
transactions, totaling $110, for an appreciation lunch and gifts for members. LIU indicated
that it believed that the costs were allowable. The criterion that follows indicates such costs
are not chargeable to Federal grants. As a result, the auditors questioned the Federal-share
costs of $2,010.

Criteria

OMB Circular A-21, Cost Principles for Educational Institutions, Attachment J.17.
Entertainment Costs, states, “Costs of entertainment, including amusement, diversion, and
social activities and any costs directly associated with such costs (such as tickets to shows
or sports events, meals, lodging, rentals, transportation, and gratuities) are unallowable.”

OMB Circular A-21, Attachment J.22. Goods or service for personal use, states, “Costs of
goods or services for personal use of the institution’s employees are unallowable regardless
of whether the cost is reported as taxable income to the employees.”

AmeriCorps Application instructions (2005) Appendix E. Budget Instructions, I. Other
Operating Costs, states that “Gifts or food in an entertainment event setting are not
allowable costs.”

OMB Circular A-21, Section C.3. Reasonable costs, states,

           A cost may be considered reasonable if the nature of the goods or services
           acquired or applied, and the amount involved therefore, reflect the action that
           a prudent person would have taken under the circumstances prevailing at the
           time the decision to incur the cost was made. Major considerations involved
           in the determination of the reasonableness of a cost are: whether or not the
           cost is of a type generally recognized as necessary for the operation of the
           institution or the performance of the sponsored agreement; the restraints or
           requirements imposed by such factors as arm’s-length bargaining, Federal
           and State laws and regulations, and sponsored agreement terms and
           conditions; whether or not the individuals concerned acted with due prudence
           in the circumstances, considering their responsibilities to the institution, its
           employees, its students, the Federal Government, and the public at large;
           and, the extent to which the actions taken with respect to the incurrence of
           the cost are consistent with established institutional policies and practices
           applicable to the work of the institution generally, including sponsored
           agreements.




                                                 19
 


Costs Outside of Grant Period

One of the 20 Federal-share cost transactions and two of the 20 grantee match cost
transactions reviewed at SJU were claimed to the wrong grant period. All of the costs were
charged to grant No. 06NDHMA002. The costs should have been charged to grant No.
03NDHMA001. As a result, the auditors questioned $197 for the Federal-share transaction.
Jumpstart had claimed 100 percent of the Federal funds awarded under grant
No. 03NDHMA001; therefore, the auditors were not able to offset the costs to that grant.
The auditors did not question the match costs claimed because Jumpstart had sufficient
match to substitute for these costs and still meet its matching requirements.

Criteria

The criteria at 45 C.F.R., § 2543.28 Period of availability of funds, states that, “Where a
funding period is specified, a recipient may charge to the grant only allowable costs resulting
from obligations incurred during the funding period and any pre-award costs authorized by
the Federal awarding agency.”

Personnel Costs

Jumpstart and one tested subgrantee did not properly charge costs of personnel benefits to
the Corporation grants. Jumpstart did not properly allocate health insurance, workers’
compensation, or 401k benefits to grant No. 03NDHMA001, the Innovative grant, and the
Higher Education grant. These expenses were allocated to these grants by department and
not by individual employees. These expenses were summed up by department and divided
equally among each employee in the department. Because the allocation for these
expenses was based on the department’s work on a given grant, and not by each
employee’s effort on that grant, we could not determine the actual costs that should have
been charged to the grants for health insurance, workers’ compensation, and pension.
Therefore, we questioned $9,389 of Federal-share costs for grant No. 03NDHMA001, and
$6,222 of Federal-share costs for the Higher Education grant. We did not question the
related match costs charged to grant No. 03NDHMA001, the Innovative grant, and the
Higher Education grant because Jumpstart had sufficient additional match costs to meet its
matching requirement. Jumpstart indicated that, at the time, the allocation method used
was the most feasible.

Jumpstart did not properly calculate personnel labor costs that were charged to grant No.
03NDHMA001 and the Innovative grant for the timesheets we tested for two employees.
The gross pay is divided by the number of hours worked in a two-week pay period to derive
the hourly payroll rate by employee. However, when paid time off is taken by an employee,
it changes the hours worked in that two-week pay period, ultimately changing the hourly
payroll rate. The hourly payroll rate is then multiplied by the number of hours worked in a
given program. We did not question costs associated with the improper calculations of
personnel labor costs because the costs were immaterial. Jumpstart indicated that the
improper calculations of the hourly payroll rates in these two instances for these employees
were done in error.

Jumpstart did not maintain time and attendance records for one employee in our sample
whose personnel costs were charged to grant No. 03NDHMA001 for the pay period ended


                                              20
 


February 24, 2006. The timesheet could not be located for this individual for the pay period.
As a result, we questioned $547 of Federal-share costs.

TTU overstated personnel labor costs for one faculty member it charged to grantee match
(grant No. 06NDHMA002) because it used budgeted personnel expenses instead of actual
personnel expenses. The correct time and effort percentages were used to allocate
personnel costs; however, the incorrect gross salary amounts were used. TTU indicated
that it did not realize that the reports it was using contained budgeted amounts and not
actual costs. Sufficient additional match costs were available to substitute for these
improper costs, and therefore we did not question the match costs claimed.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations Attachment A. General
Principles, Section A.4. Allocable Costs, states:

           a. A cost is allocable to a particular cost objective, such as a grant, contract,
           project, service, or other activity, in accordance with the relative benefits
           received. A cost is allocable to a Federal award if it is treated consistently
           with other costs incurred for the same purpose in like circumstances and if it:
           (1) Is incurred specifically for the award.
           (2) Benefits both the award and other work and can be distributed in
           reasonable proportion to the benefits received, or
           (3) Is necessary to the overall operation of the organization, although a direct
           relationship to any particular cost objective cannot be shown.

           b. Any cost allocable to a particular award or other cost objective under these
           principles may not be shifted to other Federal awards to overcome funding
           deficiencies, or to avoid restrictions imposed by law or by the terms of the
           award.

OMB Circular A-122, Cost Principles for Non-Profit Organizations Attachment B, Selected
Items of Cost, Section 8.m., Support of salaries and wages, states in part:

           (1) Charges to awards for salaries and wages, whether treated as direct
           costs or indirect costs, will be based on documented payrolls approved by a
           responsible official(s) of the organization. The distribution of salaries and
           wages to awards must be supported by personnel activity reports, except
           when a substitute system has been approved in writing by a cognizant
           agency….

           (2) Reports reflecting the distribution of activity of each employee must be
           maintained for all staff members (professionals and nonprofessionals) whose
           compensation is charged, in whole or in part, directly to awards. In addition,
           in order to support the allocation of indirect costs, such reports must also be
           maintained for other employees whose work involves two or more functions
           or activities if a distribution of their compensation between such functions or
           activities is needed in the determination of the organization’s indirect cost
           rate(s)….


                                                  21
 




OMB Circular A-21, Attachment J.10.b. Payroll distribution, states in part:

           2.b. The payroll method must recognize the principle of after-the-fact
           confirmation or determination so that costs distributed represent actual costs,
           unless a mutually satisfactory alternative agreement is reached.

Recommendations

We recommend that the Corporation:

    1.a.     Resolve the questioned costs, $23,723, and recoup disallowed costs;

    1.b.     Ensure Jumpstart develops and documents controls necessary to ensure that
             PERs submitted by its subgrantees are correctly entered into Jumpstart’s financial
             system;

    1.c.     Ensure that Jumpstart maintains adequate support for Federal and match costs it
             claims and provides training to its subgrantees that ensures that subgrantees
             develop control procedures so that only allowable and documented Federal and
             match costs are claimed;

    1.d.     Ensure Jumpstart provides additional training to its staff and subgrantees on
             allowable and unallowable costs with an emphasis on costs incurred in the grant
             period, personnel costs, and using actual instead of budgeted faculty costs; and

    1.e.     Ensure that Jumpstart establishes and uses proper allocation methodology to
             charge personnel benefits to its grants.

Jumpstart’s Response

Jumpstart stated that it is in agreement with unsupported costs in the finding. Jumpstart
also stated that Jumpstart’s Regional Coordinator trained all finance and site staff at St.
John’s and LIU on proper procedures for filing paperwork and accounting for costs. In the
future, St. John’s and LIU will conduct periodic checks throughout the year to verify that their
systems are compliant and that all costs have the supporting documentation.

Jumpstart also concurred that the costs associated with St. John’s, TTU and LIU were
unallowable. Furthermore, Jumpstart stated St. John’s has reviewed its protocol for coding
and has made necessary changes. All costs will be documented by the finance staff
separately from any other grant and the site staff has been made aware of the grant code
that should accompany all documentation.

As it relates to TTU, Jumpstart will include language in the Cooperative Agreement with TTU
to limit travel expenditures to Site Managers, Corps members, and staff associated with
Jumpstart. As it relates to LIU, the applicable Regional Coordinator has trained all finance
and site staff at LIU on proper procedures for accounting for costs and what is allowable.



                                                 22
 


LIU will conduct periodic checks throughout the year to verify that its systems are compliant
and that all costs are allowed.

Jumpstart stated it recently changed its methodology for allocating personnel benefits. It
also stated that it was not appropriate for the auditors to question the full amount of costs
because, regardless of the allocation method, actual personnel expenses were incurred.
Jumpstart further stated that by using the auditor’s method, allowable costs would have
been $11,611, instead of the $15,611 initially claimed.

Finally, regarding the time and attendance records, Jumpstart concurred and stated it had
implemented an online timesheet system prior to the engagement to avoid issues such as
missing timesheets. This new system is in full compliance with Federal regulations and
maintains every timesheet submitted by employees. It also is integrated into Jumpstart’s
payroll/ADP systems and accounting software, which ensures that only those costs that
have compliant timesheets are reported, and that all timesheets are maintained
electronically. As a result, errors such as this one will not occur again.

Auditor’s Comment

The Corporation should consider the actions proposed by Jumpstart and follow up to ensure
that Jumpstart’s planned actions are implemented and effective. However, regarding the
personnel benefit costs, Jumpstart has not provided documentation to support the amount of
costs it believes should be allowable; therefore, we question the entire amount.


Finding 2.       Lack of adequate procedures and controls to ensure service hours are
                 recorded only for members with signed contracts, criminal background
                 checks are performed, and required minimum service hours are met.

Pre-Contract Service Hours

Three of six AmeriCorps subgrantees tested permitted applicants to record service hours
before member service agreements were signed.

                                                                  Questioned Education
    Subgrantee                    Description
                                                                         Award
                   1 of 14 members tested did not sign service
      TTU               agreement prior to start of service                  $0

                   6 of 20 members tested did not sign service
       HU                                                                  $3,000
                        agreements prior to start of service
                   9 of 17 members tested did not sign service
       LIU                                                                 $5,500
                        agreements prior to start of service

TTU permitted the member to begin service prior to signing a member service agreement
because the member was a returning AmeriCorps member. HU indicated that initially the
members noted did not complete the signature page of their contracts, and were asked to
do so upon discovery during a routine member file check, which is the date indicated on the
contract. LIU indicated that a proper system was not in place at that time to keep track of all

                                              23
 


paperwork dates. We questioned service hours that were recorded prior to the applicants
signing their service agreements. Education awards, totaling $8,500, were questioned for
members whose minimum service hours were not met after reducing the members’ total
service hours by the questioned service hours.

Criteria

The AmeriCorps Special Provisions, Section IV.C. Member Enrollment, states in part:

           1. Member Enrollment Procedures.

                  a. An individual is enrolled as an AmeriCorps member when all of
                     the following have occurred:

                          i. He or she has signed a member contract;
                          ii. The program has verified the individual's eligibility to serve;
                          iii. The individual has begun a term of service; and
                          iv. The program has approved the member enrollment form in Web
                          Based Reporting System [WBRS].

Criminal Background Checks

Three of the 17 member files reviewed at LIU did not have evidence that criminal
background checks were performed on those members. These members worked with
children. Without obtaining the required background check documentation, LIU cannot
ensure that potential members are eligible to participate in the program in accordance with
the AmeriCorps provisions. LIU indicated that background checks were completed by its
program partners and stored at their centers. In some cases, the program partners would
allow Jumpstart to copy the criminal background check acknowledgement letters to place in
the member files. However, it was not always the case. Jumpstart has since changed its
policy to ensure it gets all of the forms and that checks are performed.

Criteria

AmeriCorps Special Provisions, Section IV.C. Member Enrollment, states in part:

           7. Criminal Background Checks. Programs with members (18 and over) or
           grant-funded employees who, on a recurring basis, have access to children
           (usually defined under state or local law as un-emancipated minors under the
           age of 18) or to individuals considered vulnerable by the program (i.e. the
           elderly or individuals who are either physically or mentally disabled), shall, to
           the extent permitted by state and local law, conduct criminal background
           checks on these members or employees as part of the overall screening
           process.

           The grantee must ensure, to the extent permitted by state or local law, that it
           maintains background check documentation for members and employees
           covered by this provision in the member or employee’s file or other
           appropriate file. The documentation must demonstrate that, in selecting or


                                                  24
 


           placing an individual, the grantee or the grantee’s designee (such as a site
           sponsor) reviewed and considered the background check’s results.

Member Service Hours

Two of the six subgrantees tested permitted members to earn education awards even
though the minimum service hour requirement was not met. One of the 25 members
reviewed at SJU did not serve the required minimum service hours yet received an
education award. This member had 268 hours recorded on its time sheets, and therefore
did not meet the minimum required service hours of 300. As a result, we questioned this
member’s education award of $1,000.

In addition, one of the 20 members reviewed at HU did not serve the required minimum
service hours, but received an education award. This member had 293.5 hours recorded on
timesheets and did not meet the minimum 300 service hours. HU indicated that the member
completed the hours with another campus organization. These hours were recorded in
WBRS, but were not recorded on the member’s AmeriCorps timesheets. As a result, we
questioned this member’s education award of $1,000.

Criteria

The AmeriCorps Special Provisions, Section IV.E. Terms of Service, states in part:

           1. Program Requirements. Each Program must at the start of the term of
           service, establish the guidelines and definitions for the successful completion
           of the Program year, ensuring that these Program requirements meet the
           Corporation’s service hour requirement as defined below:

                  *       *      *

                  e. Minimum Time Members. Minimum time members must serve at
                  least 300 hours over a time not to exceed one year.

The AmeriCorps Special Provisions, Section IV.C. Member Enrollment, states in
part:

           2. AmeriCorps Members. The grantee must keep time and attendance
           records on all AmeriCorps members in order to document their eligibility for
           in-service and post service benefits. Time and attendance records must be
           signed and dated both by the member and by an individual with oversight
           responsibilities for the member.




                                                 25
 


Recommendations

We recommend that the Corporation:

    2.a.   Resolve the questioned education awards, $10,500, and recoup disallowed costs;

    2.b.   Verify that Jumpstart develops controls to ensure that member contracts are
           signed before hours of service are recorded;

    2.c.   Ensure that Jumpstart provides additional training to its subgrantees to ensure
           they are familiar with the new National Service Criminal History Check
           requirements and develop procedures to meet the new requirements; and

    2.d.   Verify that Jumpstart developed controls to ensure that member time is
           documented and approved and encompasses controls that assure only members
           who complete required service hours receive an education award.


Jumpstart’s Response

Jumpstart acknowledges the error associated with the pre-contract service hours and
indicated it has trained all site and regional staff about the importance of having all member
contracts signed prior to or on the first day of a member’s service. However, given that all
16 of the AmeriCorps members who signed their contracts late did in fact serve either 300 or
450 hours, Jumpstart does not believe that the $8,500 should be questioned.

Regarding the criminal background checks, Jumpstart stated that it has decided to
centralize the criminal background check process. Jumpstart’s National Human Resources
department will be solely responsible for ensuring that all criminal background checks are
conducted and that all of the applicable State and Federal rules are followed.

Finally, with regard to insufficient member service hours, Jumpstart stated that program
managers are conducting weekly meetings with the respective site managers. Monthly
meetings are also occurring between the Program Director and the Campus Champion of
each site to discuss performance on compliance and data entry requirements.

Corporation’s Response

The Corporation indicated that it considers the member contract or agreement to be an
important compliance component that must be in place as members begin service so they
understand their rights and responsibilities. Jumpstart must take corrective action to have
these contracts in place. However, the Corporation intends to allow the education awards
because the date the member contract is signed should not be a criterion for disallowing
otherwise legitimate service hours performed before that date.

Auditor’s Comment

The Corporation should consider the actions proposed by Jumpstart and follow up to ensure
that Jumpstart’s planned actions are implemented and effective. Regarding the pre-contact

                                             26
 


service hours, we acknowledge the Corporation’s stance that the date the contract is signed
should not be a criterion for disallowing otherwise legitimate service hours. The OIG informs
us that there have been continuing discussions with the Corporation on this issue.
However, the OIG’s continues to assert that hours served before the contract is signed
should not be counted toward an education award. The OIG also asserts that, if the
member does not otherwise have sufficient hours, the education and interest accrual awards
should be disallowed.


Finding 3.       Late submission of Financial Status Reports and member documents,
                 missing member evaluations, unsigned member time sheet, and
                 excessive daily member service hours.

Late Submission

Jumpstart and the six AmeriCorps subgrantees we tested did not always submit required
reports by the dates due, as shown in the table below.

            Location                       Description of Non-Compliance


    Jumpstart                     2 of 16 FSRs submitted late

                                  1 of 25 tested enrollment forms submitted late
    St. John’s University         3 of 25 tested exit forms submitted late
                                  1 of 25 tested change-of-status forms submitted late
                                  1 of 14 tested enrollment forms submitted late
    Texas Tech University
                                  4 of 14 tested exit forms submitted late

    University of Virginia        8 of 18 tested enrollment forms submitted late

    George Washington             3 of 24 tested enrollment forms submitted late
    University                    11 of 24 tested exit forms submitted late

                                  17 of 20 tested enrollment forms submitted late
    Howard University
                                  3 of 20 tested exit forms submitted late

                                  7 of 17 tested enrollment forms submitted late
    Long Island University
                                  1 of 17 tested exit forms submitted late

If Jumpstart does not submit FSRs in a timely manner, the Corporation cannot review the
reports in a timely manner and may not be fully aware of the financial status of grants.
Jumpstart indicated that the FSRs were not submitted on time because of staff turnover.

If subgrantees do not enter member forms within the required 30-day period, the National
Service Trust database at the Corporation will not contain current information.


                                             27
 



SJU said it entered exit forms into WBRS late because it was unable to obtain the signed
exit forms from the AmeriCorps members on time. SJU also indicated it entered the
enrollment and change-of-status forms late because of human error.

TTU stated that exit forms were entered into WBRS late because it delayed entering the
information for four members that were expected to complete the program. TTU indicated
that the enrollment form was late because of an oversight.

UVA said that it was uncertain of the cause for late enrollment forms because the
responsible personnel have left.

GWU stated that exit forms were entered into WBRS late because it wanted to give the
members an opportunity to complete their terms of service during the summer. GWU also
indicated that enrollment forms were entered late due to the impact of crunch time in which
diverse programmatic activities, such as recruitment, training, data management, and record
entry into WBRS were taking place simultaneously.

HU stated that member enrollment forms were entered late because of other employee
duties. HU indicated that member exit forms were late because members exited the
program unofficially; i.e., the members left the campus for the summer without prior
notification to management.

LIU stated that, at that time, proper systems were not developed to keep track of all
paperwork dates.

Criteria

The AmeriCorps Special Provisions, Section N.2. Reporting Requirements, states:

           b. AmeriCorps Member Related-Forms. The Grantee is required to submit
           the following documents to the National Service Trust at the Corporation on
           forms provided by the Corporation. Grantees and Sub-Grantees may use
           WBRS to submit these forms electronically. Program using WBRS must also
           maintain hard copies of the forms.

                  a. Enrollment Forms. Enrollment forms must be submitted no later
                     than 30 days after a member is enrolled.
                  b. Change of Status Forms. Member Change of Status Forms must
                     be submitted no later than 30 days after a member's status is
                     changed. By forwarding Member Change of Status Forms to the
                     Corporation, State Commissions and Parent Organizations signal
                     their approval of the change.
                  c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-
                     of-Service Forms must be submitted no later than 30 days after a
                     member exits the program or finished his/her term of service.




                                               28
 


The AmeriCorps Special Provisions, Section N. 1, Reporting Requirements, states in part:

           a. Financial Status Reports.      The grantee shall submit semi-annual
              cumulative financial status reports, summarizing expenditures during the
              reporting period using eGrants (on the menu tree, click ‘Financial Status
              Reports’). Financial Status Report deadlines are as follows:

                          Due Date               Reporting Period Covered
                          April 30               Start of grant through March 31
                          October 31             April 1 – September 30

Member Evaluations

Two of six tested AmeriCorps subgrantees did not perform end-of-term evaluations for some
of its members. One of 25 members reviewed at SJU did not have an end-of-term
evaluation performed. Also, 1 of the 24 members reviewed at GWU did not have an end-of-
term evaluation performed. As a result, these members did not receive the only evaluation
required for a minimum-time member and cannot serve a second term. When an evaluation
is not performed on a member, there is no way to determine if the member satisfactorily
completed the term of service as required in order to be eligible for an education award.
Both SJU and GWU indicated that they were uncertain of the cause for this condition
because the responsible personnel have left. The member from SJU did not have an
evaluation for program year 2006-2007. We did not determine if the member served the
following year because that was outside of the scope of this engagement. The member
from GWU did not have an evaluation for program year 2005-2006, and this member did not
serve in the program the following program year.

Criteria

AmeriCorps Special Provisions, Section IV.D., Training, Supervision and Support, states in
part:

           6. Performance Reviews. The grantee must conduct and keep a record of
           at least a midterm and end-of-term written evaluation of each member's
           performance for Full and Half-Time members and an end-of-term written
           evaluation for less than Half-time members. The evaluation should focus on
           such factors as:
               a. Whether the member has completed the required number of hours;
               b. Whether the member has satisfactorily completed assignments; and
               c. Whether the member has met other performance criteria that were
                  clearly communicated at the beginning of the term of service.

The criteria at 45 C.F.R. § 2522.220, states in part:

           c. Eligibility for second term. A participant will only be eligible to serve a
           second or additional term of service if that individual has received satisfactory
           performance review(s) for any previous term(s) of service….




                                                  29
 


Excessive Member Service Hours

One of the 25 members reviewed at SJU had excessive hours recorded on the last time
sheet of the program year. This member had 18 hours recorded for April 23, 2007, 20 hours
recorded for April 24, 2007, 21 hours recorded for April 26, 2007, 20 hours recorded for April
30 2007, and 24 hours recorded for May 3, 2007. SJU indicated that this member
previously served member hours that were not recorded; however, we were unable to
substantiate that information. Those member service hours as well as the actual member
service hours served on those days were combined and recorded on the last time sheet.
The actual service hours worked on each of these days could not be determined. Jumpstart
also indicated that it is impossible for a member to serve that many hours in a day because
the Jumpstart program is held only during school hours, typically an 8-hour day. Therefore,
the treatment given to those hours was not appropriate under the circumstances. After
reducing these hours from the member’s total, the member did not meet the required
minimum hours to receive an education award. As a result, we questioned this member’s
education award of $1,000.

Criteria

OMB Circular A-21, Section C., Basic Considerations, states, in part:

           2. Factors affecting allowability of costs. The tests of allowability of costs
           under these principles are: (a) they must be reasonable; (b) they must be
           allocable to sponsored agreements under the principles and methods
           provided herein; (c) they must be given consistent treatment through
           application of those generally accepted accounting principles appropriate to
           the circumstances; and (d) they must conform to any limitations or exclusions
           set forth in these principles or in the sponsored agreement as to types or
           amounts of cost items.

Recommendations

We recommend that the Corporation:

    3.a.     Resolve the questioned education award, $1,000;

    3.b.     Ensure that Jumpstart develops effective control procedures so that its staff meets
             submission deadlines for FSRs and member forms; and

    3.c.     Ensure that Jumpstart provides training that helps subgrantees develop control
             procedures to ensure required member evaluations are performed and
             documented and that members’ service hours are accurately recorded.

Jumpstart’s Response

Jumpstart acknowledges that it needs to work with sites to ensure that timely submissions of
enrollment and exit forms are a top priority. Jumpstart advised that all site and regional staff
received training at its September 2008 Leadership Institutes. The training included a
review of the audit findings and action steps to be taken.


                                                30
 



Regarding the member evaluations, Jumpstart stated it will provide guidance to all sites and
regions relating to the rule and will ensure, through its site management, that the rule is
followed.

Finally, for the issues related to excessive member service hours for St. John’s, Jumpstart
stated the site managers received additional training on what is acceptable and not
acceptable for logging service hours. In addition, Jumpstart created new support systems to
track hours and remind Site Managers and AmeriCorps members about the times they are
allowed to serve.

Auditor’s Comment

The Corporation should consider the actions proposed by Jumpstart and follow up to ensure
that Jumpstart’s planned actions are implemented and effective.



This report is intended for the information and use of the Office of Inspector General,
Corporation management, Jumpstart, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Woodbridge, Virginia
October 17, 2008




                                            31
 




                           APPENDIX A

    Jumpstart for Young Children, Inc. Response to Draft Report
James Elmore
Office of the Inspector General
1201 New York Avenue, NW
Suite 830
Washington, DC 20525


Dear Mr. Elmore:

Enclosed please find Jumpstart for Young Children, Inc.’s comments to the Office of the
Inspector General’s draft report on the Agreed Upon Procedures for Corporation for National
and Community Service Grants Awarded to Jumpstart for Young Children, Inc. received on
August 29, 2008.

As requested, Jumpstart is sending this letter, along with Jumpstart’s comments, in
electronic format.

Please do not hestitate to contact me with any further questions or concerns.

Sincerely,

Karen Domerski
Director, National Service Programs
   Jumpstart for Young Children Response to IG Audit Report

Executive Summary
The findings in this report are evidence of the rigor and compliance that Jumpstart
for Young Children, Inc. maintains with the programmatic and financial requirements
associated with the federal awards that it receives.

First and foremost, the scarcity of costs that were questioned is a good indication
that these findings were not systemic throughout Jumpstart but rather one-off
errors. Whereas the scope of the audit was $4,920,581 in awards that Jumpstart
received over 3 years, the audit only questioned costs of $23,732, representing less
than .5% of the awarded amount. Similarly, of the approximately $1,450,000 that
Jumpstart Corps members were awarded from the National Service Trust for the
2005-2006 and 2006-2007 grant years, only $11,500 were questioned.

Further, the types of costs that were questioned by the auditors were mostly manual
entry errors or human error issues. This is further indication that these problems
were not systemic throughout the organization but rather isolated instances.
Nevertheless, one year before these costs were questioned, Jumpstart had already
implemented new systems and processes that would have reduced 2/3rd’s of the
questioned costs.

Finally, and most significantly, the scarcity of errors and types of errors uncovered in
the report indicate that Jumpstart upheld and fulfilled the spirit of its fiscal
objectives.

QUESTIONED COSTS AT JUMPSTART
In addition to the corrective actions listed below, Jumpstart holds annual trainings
for all of its affiliate partners to ensure that its affiliates are aware of the
requirements associated with its federal grants. These trainings, which are done via
conference call, are supplemented with documentation and reference to all of the
relevant OMB circulars that must be adhered to. Further, Jumpstart does an annual
spot check of all of its affiliates once a year. Contrary to what was stated in the
Inspector General report, these spot checks are then followed up by a random spot
check at some point during the year of those affiliates that Jumpstart believes may
have inadequate controls.

Finding #1: Unsupported Costs
Lost Invoice: As listed on page 17 of the report, “at Jumpstart…one of the 21
Federal-share cost transactions reviewed…were not supported.” Jumpstart is in
agreement that the invoice associated with this expense could not be found. This
questioned cost was due to human error. After the initial invoice was entered into
Jumpstart’s Accounts Payable (AP) system and placed in storage, it was later taken
out of the filing system in order to allocate its expense to different grants. After
allocating the expense out to different grants within the General Ledger, the invoice
was either never returned to the file or placed in the wrong file. After attempting to
contact the vendor to obtain a new copy of the invoice, Jumpstart was informed by
the vendor that they do not maintain their records for more than 2 years. The fact
that only 1 of 21 cost transactions could not be supported is an indication that this
was a one-off error and not a systemic problem with Jumpstart’s filing system.
St. Johns University: One of the 20 Federal-share costs transactions that were
reviewed at St. John’s University was not properly supported. The University went
back and reviewed all related information from the fiscal year but could not find the
supporting documentation for the cost. Jumpstart’s Regional Coordinator of the Mid-
Atlantic region trained all finance and site staff at St. John’s on proper procedures for
filing paperwork and accounting for costs. In the future, St. John’s will conduct
periodic checks throughout the year to verify that their systems are compliant and
that all costs have the supporting documentation. To maintain joint communication
and support for the site, the Site Managers will maintain back up copies of
information that documents costs for purchases in a binder at the office. The finance
office will also have documentation and will be responsible for checking the costs
documented to the receipts and confirming that the information is being reported
accurately.

Long Island University: Two of the 40 Federal-share cost transactions reviewed at
Long Island University (LIU) were not supported. LIU reviewed all related information
from the fiscal year but could not find the supporting documentation for the cost.
The Regional Coordinator for the Mid-Atlantic region trained all finance and site staff
at LIU on proper procedures for filing paperwork and accounting for costs. In the
future, the site will conduct periodic checks throughout the year to verify that their
systems are compliant and that all costs have the supporting documentation. To
maintain joint communication and support for the site, the Site Managers will
maintain back up copies of information that documents costs for purchases in a
binder at the office. The finance office will also have documentation and will be
responsible for checking the costs documented to the receipts and confirming that
the information is being reported accurately.

Finding #1: Unallowable Costs
St. John’s University: Two of the 20 Federal-share cost transactions reviewed at St.
John’s University were unallowable because the purposes of the transactions were
unrelated to the grant. St. John’s has reviewed its protocol for coding and made
changes so that this will not happen in the future. All costs will be documented by
the finance staff separately from any other grant. The site staff has been made
aware of the grant code that should accompany all documentation.

Texas Tech University: Six of the 38 Federal-share cost transactions reviewed at
Texas Tech University (TTU) were unallowable. To ensure unallowable expenditures
like these do not occur in the future, Jumpstart will include language in the
Cooperative Agreement with TTU to limit travel expenditures to Site Managers, Corps
members and staff associated with Jumpstart. Furthermore, travel will be limited to
the previously mentioned persons participating in training and/or service events for
Jumpstart. Jumpstart will also include language in the Cooperative Agreement
pertaining to research related to the Jumpstart program, and will explicitly state that
other sources of funds must be used in conjunction with research-related activities.

In addition, Jumpstart regional and finance staff will continue to review periodic
expense reports and request clarification of any expenses that are either unclear or
questionable. In the budgeting process for sites during the preceding program year,
Jumpstart staff will also review challenges and findings from this audit with all sites
to provide guidance that should help sites guard against any expenses that may not
be allowable or may need further documentation to be allowed.
Long Island University: Five of the 40 Federal-share cost transactions reviewed at
LIU were unallowable. The Regional Coordinator for the Mid-Atlantic region train all
finance and site staff at LIU on proper procedures for accounting for costs and what
is allowable. In the future, LIU will conduct periodic checks throughout the year to
verify that their systems are compliant and that all costs are allowed. The Site
Manager will also review all costs with the finance team before the costs are planned
for or made so that it can be confirmed to be in line with procedures.

Finding #1: Personnel costs: Personnel Benefits
The largest questioned cost in the report is listed on page 20 and is attributable to
Jumpstart’s allocation methodology for health insurance, workers compensation and
401(k) plans. This issue alone accounts for $15,611 of the $23,723 in questioned
costs, which is equal to 2/3rd’s of all of questioned costs in the report.

Jumpstart utilized its allocation methodology because it had been reviewed by
several auditors and state agencies in the past. The tacit approval of the auditors
and state agencies of this methodology, given their review of the allocation
methodology, is an indication that the methodology was in keeping with the spirit, if
not the letter, of federal regulations. The methodology allocated insurance, workers
compensation and 401(k) costs to grants based on the amount of time worked on
the grant by a given department, instead of itemizing on an individual-by-individual
basis. Nevertheless, given the rigor with which Jumpstart complies with federal
guidelines, Jumpstart made the determination to stop utilizing this allocation
methodology a year before it was flagged as a questioned cost by the Inspector
General. Jumpstart no longer includes these costs in its grants.

Of equal importance is the fact that the sum of $15,611 greatly overestimates the
full extent of the error. This sum represents the full extent of all of health insurance,
workers compensation and 401(k) costs applied to the award. To question all of
these costs would imply that Jumpstart did not incur any health insurance, workers
compensation or 401(k) costs associated with the grant. After some preliminary
analysis, Jumpstart has determined that its allocation methodology led to overstating
costs on its grants by $4,000 or roughly 25% of the total. That is to say, that
Jumpstart’s actual allocation, as proposed by the Inspector General, may have led to
an allowable cost of $11,611, instead of the $15,611 that Jumpstart initially claimed.

Upon learning of the “non-compliance” of its allocation methodology by the Inspector
General, Jumpstart chose not to itemize the allocation because the determination
was made that the effort involved to reallocate all of the health insurance, workers
compensation and 401(k) expenses over three years for all of the individuals
involved would have been unduly time consuming, given the limited resources that
Jumpstart has to dedicate to this undertaking.

Jumpstart’s methodology allocated all of the insurance, workers compensation and
401(k) costs for a given department and then divided it out based on the pro-rated
share of the hours worked on a given grant. See equation below:

Sum     of    all       Hrs worked by
Insurance,              dept.   on    a       Dept.      costs
Workers Comp,       x   given grant       =   allocated to a
401(k)     costs        Total       hrs       given grant
incurred by a           worked       by
given dept.             dept.
Meanwhile, the cost allocation recommended by the Inspector General is as follows:


                                            Hrs worked by
                     Insurance,             individual on a
 Sum      of   the   Workers Comp,          given grant
                                        X                      =   Dept.     costs
 following           401(k)     costs
                                                                   allocated to a
 equation for all    incurred by a
                                                                   given grant
 individuals in a    given individual       Total        hrs
 department          in dept.               worked        by
                                            individual


As evidenced by the above explanation, it is clear that by using either method, the
resulting differences would be rather minimal.

Jumpstart has chosen to change the methodology it uses in determining personnel
benefits and has done so for the past year. It does not seem appropriate to question
the full amount of costs, considering that by either method there were actual
personnel expenses being incurred.

Finding #1: Personnel Costs: Time and Attendance Records
As listed in the report,

       Jumpstart did not maintain time and attendance records for one employee in
       our sample whose personnel costs were charged to [the] grant…This
       timesheet could not be located for this individual for the pay period. As a
       result, we questioned $547 of Federal-share costs.

Jumpstart is in agreement that the timesheet for this individual could not be found.
This timesheet corresponded to the last pay period that this person was on
Jumpstart’s payroll. As a result, it is possible, through human error, that this
timesheet, which was a manual-entry paper timesheet, was lost. Jumpstart has
human resource documentation, including ADP payroll records, a severance
agreement, and an exit letter submitted to the employee, that prove the employee
did in fact work through the time she was paid.

In order to avoid manual-entry or human errors such as this, Jumpstart implemented
an online timesheet system two years before this cost was questioned. This new
system is in full compliance with federal regulations and maintains every timesheet
submitted by our employees. It is integrated into Jumpstart’s payroll/ADP systems
and accounting software. The software’s integration into the accounting system
ensures that only those costs that have compliant timesheets are reported, and that
all timesheets are maintained electronically. As a result, errors such as this one will
not occur again.


Finding #2: Pre-Contract   Service Hours
Three of six AmeriCorps    subgrantees tested permitted applicants to record service
hours before member         service agreements were signed.        While Jumpstart
acknowledges that this     was an error and has made corrective action plans to
alleviate this occurrence in the future, it does not feel that the $8,500 should be
questioned. First, all 16 of the Corps members who signed their Corps member
contracts late did in fact serve either 300 or 450 hours. This was a procedural error,
similar to not enrolling a Corps member in the required 30 days, and as such should
not result in a questioning of the education awards.

Additionally, during Jumpstart’s exit interview, it was stated that the Inspector
General’s Office and the Corporation for National and Community Service’s Grants
Office are not in agreement that questioning the education awards is the correct
measure of action that should be taken in this instance. As this is being decided by
these two parties, Jumpstart does not feel it should be held to this current measure
of action.

In order to ensure that all Corps member contracts are signed prior to or on the first
day of a Corps member’s service, Jumpstart has trained all site and regional staff
about the importance of this rule, as well as the other findings of this report. This
training was delivered as part of each region’s September Leadership Institute.

Finding #2: Criminal Background Checks
After the period tested in these findings, the Corporation for National and Community
Service has significantly changed the criminal background check rule. As a result of
these changes, Jumpstart has decided to centralize the criminal background check
process.    By centralizing the process, Jumpstart’s National Human Resources
department is solely responsible for ensuring that all criminal background checks are
conducted and that all of the applicable state and federal rules are followed in
conducting the background checks.

Finding #2: Member Service Hours
During the audit, the Inspector General found two instances of individuals receiving
Education Awards despite not having completed sufficient hours. As a result, they
questioned $2,000 in Education Awards. These instances occurred with one Corps
member at St. Johns University and one Corps member at Howard University.

As part of the corrective action plan, program managers are conducting weekly
meetings with the respective site manager. Monthly meetings are also occurring
between the Program Director and the Campus Champion of each site specifically
related to the site’s performance with compliance and data entry.

Finding #3: Late Submission
Jumpstart and the six AmeriCorps subgrantees did not always submit required
reports by the dates due. Jumpstart had 2 late Financial Status Reports (FSRs)
during the time period tested. One of the FSR's was submitted late because of staff
turnover in a key position right before the FSR was due. As a result, the finance
staff was left short-handed and did not have the manpower to submit the FSR on a
timely basis. The other FSR was submitted late, albeit within one week of the due
date. In the future, Jumpstart will put controls in place to ensure that the FSR's are
submitted on a timely basis.

Jumpstart acknowledges that it needs to work with sites to ensure that timely
submissions of enrollment and exit forms are a top priority. Jumpstart created a
training that all site and regional staff received during their September Leadership
Institutes which occurred during the month of September 2008. As part of that
training, all of the Inspector General audit findings were reviewed and action steps
were discussed so sites are aware of what needs to occur in the coming year to
make sure timely submissions occur.

Finding #3: Member Evaluations
As of September 18, 2008, the Corporation for National and Community Service
changed the rule relating to Corps member evaluations. Jumpstart will be sending
guidance to all sites and regions relating to the new rule, and will ensure through its
site management that the rule is being followed in the correct manner.

Finding #3: Excessive Member Service Hours
One of the 25 members reviewed at St. John’s had excessive hours recorded on the
last time sheet of the program year. As a result, the Inspector General questioned
this Education Award. To prevent this from occurring in the future, the Site
Managers received additional training on what is acceptable and not acceptable for
logging service hours. In addition, Jumpstart has created new support systems to be
able to track and remind Site Managers and Corps members about what times they
are allowed to work. The policy has been put in place such that any Corps member
working over 6-8 hours in a day must have documentation about their service during
that time. Additionally, it is important to note that this was only one Corps member
out of 114 tested, and this was a unique error and not indicative of a systemic
problem at Jumpstart.
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report
                          NATIONAL&:
                          COMMUNITY
                          SERVICE~



To:            Stuart Axenfeld, Assis

From:         ~ osenlle             ,   IreC   0C) -rants Management
Cc:           Will'      derson, Deputy CFO for Finance
              Sherry Blue, Audit Resolution Coordinator
              Rocco Gaudio, Deputy CFO for Grants Management
              Kristin McSwain, Director of AmeriCorps

Date:          September 29,2008

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
              Jumpstart for Youth Children


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to Jumpstart for Young Children. We are addressing only
one finding at this time. We will respond to all findings and recommendations in our
management decision when the final audit report is issued.

As we have noted in other audits, the Corporation considers the member contract or
agreement to be an important compliance component. Programs must have them in place
as members begin service so they understand their rights and responsibilities. Jumpstart
must take corrective action to ensure its operating sites have contracts in place and
monitor the sites to ensure they implement the requirements. However, the date the
contract is signed should not be a criterion for disallowing otherwise legitimate service
hours performed before the date the member signed the contract. The Corporation will
allow the education awards.

The Corporation generally agrees with the recommendations in the report and will work
with Jumpstart on its corrective action plan. We will need to review Jumpstart's plan
before we can complete our management decision. Therefore, the Corporation will
address the remaining questioned costs and other findings during audit resolution after
the audit is issued as final and we have worked with Jumpstart to implement appropriate
action.
